 

WAIVER

SUPREME COURT OF THE UNITED STATES

No, 20-1046

Marin Housing Authority Kerrie Reilly
(Petitioner) v. (Respondent)

1DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© 1am filing this waiver on behalf of all respondents.

© only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
1am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System, ‘The system will prompt you to enter
your appearance first.)

© Lam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,

Attn: Clerk’s Office, 1 Fyrst Street, NE, Washington, D.C, 20543)
Signature: Node Zhe

Date: 3/2i21

 

(Type or print) Name Nathaniel P. Garrett

© mr. O Ms. O Mrs. O Miss
Firm Jones Day
Address 555 California Street, 26th Floor
City & State San Francisco, CA Zip 94104
Phone 415-875-5731 Email pgarrett@jonesday.com

A.copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form, No additional certificate of service or cover letter is required.

Robert Cooper
ce:
